                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Audit of EPA
                     Passport Controls
                     Report No. 14-P-0243                   May 1, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                    Jean Bloom
                                                        Kevin Collins




Abbreviations

CFR            Code of Federal Regulations
EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
OITA           Office of International and Tribal Affairs
PENS           Passport Expiration Notification System
PII            Personally Identifiable Information


Cover photo:      Passports located in boxes at an EPA warehouse operated by a contractor in
                  Landover, Maryland. (EPA OIG photo)



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:       OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:       1-202-566-2391
fax:      1-202-566-2599                       fax:         1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:      http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:       EPA Inspector General
          1200 Pennsylvania Avenue, NW                      1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                    Mailcode 2410T
          Washington, DC 20460                              Washington, DC 20460
                        U.S. Environmental Protection Agency                                                     14-P-0243
                                                                                                                May 1, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Audit of EPA Passport Controls
On August 27, 2013, a member
                                     What We Found
of the U.S. Senate Committee
on Environment and Public
                                    OITA is not in compliance with agency guidance          EPA needs to strengthen
Works requested that the
                                    over the control and security of sensitive personally   controls for official
U.S. Environmental Protection
                                    identifiable information—specifically, official and     passports to protect
Agency (EPA), Office of
                                    diplomatic passports issued to agency employees.        sensitive personally
Inspector General (OIG),                                                                    identifiable information.
                                    OITA lacks a formal written policy and procedure
initiate work in connection with
                                    for issuing, monitoring and securing passports.
a fraud committed by John C.
                                    Limited reliance can be placed on OITA’s Passport Expiration Notification System
Beale, a former Senior Policy
                                    to track and identify the location of EPA issued passports.
Advisor with the EPA’s Office of
Air and Radiation. One area
                                    Of the 417 passports purported to be in OITA’s possession, 199 could not be
that was being audited was the
                                    located. OITA has not enforced its passport guidance of having staff return
agency’s vetting process for
                                    passports after travel. Lack of compliance with agency guidance may put the
new employees. We also
                                    agency in the position where sensitive personally identifiable information is not
audited the process for official
                                    being adequately protected.
passports. The audit has
disclosed issues that impact
the Office of International and      Agency Corrective Actions and Noteworthy Achievements
Tribal Affairs (OITA) and
require immediate attention.        We recommend that OITA include a plan to identify official passports issued to
                                    agency employees and ensure that passports not currently being used for travel
This report addresses the           are returned to OITA for proper storage or cancellation. We also recommend that
following EPA theme:                OITA develop and implement an agencywide policy and procedure for the
                                    issuance, monitoring and control of official passports; a plan to review and
 Embracing EPA as a high           update information in the Passport Expiration Notification System to ensure the
  performing organization           information currently in that system is accurate and complete; and a policy to
                                    compare employee travel activity recorded in the official passport with the actual
                                    travel activity to ensure official passports are only used to carry out official duties.

                                    OITA accepted all the recommendations and developed a corrective action plan
                                    to complete all recommendations. OITA estimates corrective actions will be
                                    completed by September 30, 2014.



For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140501-14-P-0243.pdf
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                              May 1, 2014

MEMORANDUM

SUBJECT:       Audit of EPA Passport Controls
               Report No. 14-P-0243

FROM:          Arthur A. Elkins Jr.

TO:            Jane Nishida, Acting Assistant Administrator
               Office of International and Tribal Affairs

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). The report contains findings that the OIG has identified
and corrective action that the OIG recommends. The report represents the opinion of the OIG and does
not necessarily represent the final EPA position. Final determination on matters in this report will be
made by EPA managers in accordance with established audit-resolution procedures.

Action Required

The agency agreed with all recommendations and provided planned corrective actions and completion
dates that meet the intent of these recommendations. Therefore, the agency is not required to provide a
written response for these recommendations. Recommendation 3 is closed and no further action is
required. For the remaining open recommendations, please update the EPA’s Management Audit
Tracking System as you complete the planned corrective actions. Please notify my staff if there is a
significant change in the agreed-to corrective actions. Should you choose to provide a response to this
final report, we will post your response on the OIG’s public website, along with our memorandum
commenting on your response. You should provide your response as an Adobe PDF file that complies
with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended.

This report will be available at http://www.epa.gov/oig.

If you have any questions, please contact Kevin Christensen, acting Assistant Inspector General for
Audit, at (202) 566-1007 or christensen.kevin@epa.gov; or Robert Adachi, Director, Forensic Audits, at
(415) 947-4537 or adachi.robert@epa.gov
U.S. Environmental Protection Agency
Office of Inspector General

             Audit of EPA Passport Controls


              Report No. 14-P-0243
              May 1, 2014
                   Reasons for Audit
   Part of continuing work on internal controls in response to a
    member of the U.S. Senate Committee on Environmental
    and Public Works request for work in connection with a
    fraud committed by John C. Beale.

   As part of an audit of the agency’s vetting process for new
    employees, we looked into vetting for official passports.

   Issues have been identified that impact the
    U.S. Environmental Protection Agency’s (EPA’s)
    Office of International and Tribal Affairs (OITA)
    and require its immediate attention.
                                                                    14-P-0243




                                                                           2
                        Objective

To determine the agency’s responsibility and requirements
regarding the possession and safeguarding of official passports,
and evaluate whether they are being adhered to.




                                                                   14-P-0243




                                                                          3
                     Prior OIG Work
   EPA Office of Inspector General (OIG) Report No. 13-P-0272,
    Early Warning Report: Main EPA Headquarters Warehouse in
    Landover, Maryland, Requires Immediate EPA Attention,
    dated May 31, 2013, noted an issue concerning passports:

    o   Potential security breach of personally identifiable
        information, as passports were located in boxes at the
        warehouse.




                                                                 14-P-0243




                                                                        4
               Prior OIG Work (cont’d)
   Agency Acting Administrator stated in a May 23, 2013 memorandum to the
    Inspector General, that the following actions would be taken to address the
    issues raised in the report:
     o   The agency will identify and strengthen any policies and procedures
         addressing the transport, storage, access and disposition of agency
         records containing personally identifiable information.
     o   The Breach Evaluation Team will evaluate any potential concern with
         safeguarding of personally identifiable information.
     o   The agency will consult with the U.S. Department of State and
         implement immediate changes to existing procedures to ensure safe
         handling of expired or no longer needed government passports.

   OITA has developed corrective actions to address the above issues.
                                                                            14-P-0243




                                                                                   5
                       Background
   OITA’s Office of Management and International Services is
    responsible for obtaining and monitoring passports.

   The Passport Expiration Notification System (PENS) was
    created to track all passports issued to EPA travelers.




                                                                14-P-0243




                                                                       6
             Scope and Methodology
   Performed fieldwork from February 3 through March 19, 2014.

   Conducted assignment in accordance with generally accepted
    government auditing standards issued by the Comptroller
    General of the United States.

   Met with OITA staff responsible for the oversight and
    processing of passports obtained for agency staff.




                                                            14-P-0243




                                                                   7
      Scope and Methodology (cont’d)
   Reviewed OITA guidance concerning official and diplomatic
    passports issued to EPA employees.

   Obtained an extract of data from OITA’s PENS.

   Performed an inventory test of all passports located in the
    OITA Passport Office safe.

   Conducted audit work on OIG’s compliance with EPA passport
    guidance and will issue a separate report on the results.


                                                                  14-P-0243




                                                                         8
              Criteria–Official Passport
   In the Code of Federal Regulations (CFR), under
    22 CFR 51.3 (b):
    An official passport is issued to an official or employee of the
    U.S. Government traveling abroad to carry out official duties.

   Under 22 CFR 51.52 (b) and (b)(1), official passports are
    exempt from fees when the individual is:
    An officer or employee of the United States traveling on official
    business…. The applicant must submit evidence of the official
    purpose of the travel.

                                                                        14-P-0243




                                                                               9
    Criteria–Passport Acceptance Agents
   Under 22 CFR 51.22 (b) (5), the Department of State is
    authorized to select an employee of a federal agency to accept
    passport applications on its behalf.

   Within the EPA, four employees have been designated as
    passport acceptance agents:
    o Two in OITA.

    o Two in EPA Region 5.




                                                               14-P-0243




                                                                      10
                        OITA Guidance
   OITA website provides the following guidance:
    Official passports are controlled United States Government documents
    and must be returned between trips to the Travel Office of the Office of
    International and Tribal Affairs (OITA). Please return your official passport
    to OITA within 15 days after returning to the United States. When not in
    use for travel, all official passports will be maintained in a secure facility
    within OITA.
    All official passports must be forwarded to OITA for immediate
    cancellation: if you retire; if you accept employment elsewhere (even if at
    another government agency); or if you move to another position within
    EPA that does not require official travel.

                                                                               14-P-0243




                                                                                      11
       Sensitive Personally Identifiable
                 Information

   Official passports are sensitive personally identifiable
    information (PII).

   EPA Privacy Policy 2151.0 defines sensitive PII as:
       Social Security numbers, or comparable identification numbers.…
       Sensitive PII, a subset of PII, requires additional levels of security
       controls.



                                                                                14-P-0243




                                                                                       12
                             Results
   EPA OITA is not in compliance with its guidance over the
    control and security of sensitive PII in the form of official and
    diplomatic passports issued to agency employees.

   OITA’s PENS does not fully and accurately track and identify the
    location of EPA-issued passports.

   OITA guidance requires improvements.



                                                                    14-P-0243




                                                                           13
               How Did This Happen
   OITA has not kept the PENS database up to date with accurate
    information.

   OITA has not enforced its passport guidance regarding staff
    returning their passports to OITA after travel.

   PENS is not updated when an employee separates from the
    agency, as OITA is not always notified when an employee
    separates.



                                                                  14-P-0243




                                                                         14
               Why Is This Important
   Lack of compliance with agency guidance puts the agency in
    the position where sensitive PII is not being adequately
    protected.

   Lack of control could result in release of sensitive PII due to
    missing, misused or improperly destroyed official passports.




                                                                      14-P-0243




                                                                             15
                                                          PENS Data
     The PENS universe we were provided contained 2,311
      records for passports obtained through OITA’s passport
      office between1995 and February 3, 2014.

                  Passport per PENS                                              Location of passport
         Passport type                      Records                       Location                Records
         Diplomatic                                  11                   OITA                          417
         Official                               2,153                     With traveler             1,770
         Personal                                  147                    Other*                        124
                        Total                   2,311                                 Total         2,311
* Location per PENS is shown as Cancelled and Destroyed, Other or Blank


                                                                                                              14-P-0243




                                                                                                                     16
                       OITA PENS Errors
                         Results of OIG passport testing
                                                                       Number of
                            Description                                passports
Passport identified in PENS as located in OITA’s safe as of 2/3/2014         417
Less actual passports located in safe on 2/12/2014                           196
Less passport sent to Department of State by OITA between
2/5/2014 and 2/12/2014                                                         22
Passports not located during 2/12/2014 test                                   199
Percentage of passport not located (199/417)                              47.72%

Official passports located in the safe on 2/12/2014 that were not
recorded in PENS as of 2/13/2014                                              15




                                                                                14-P-0243




                                                                                       17
            Lack of Policy and Procedures
   OITA lacks a formal written policy and procedure for issuing,
    monitoring and securing passports.

   OITA’s website contains only guidance on passports.

   OITA lacks a formal written policy and procedure for an
    employee leaving the agency to return the passport to OITA, as
    stated in its website guidance.




                                                                    14-P-0243




                                                                           18
                     Recommendations
   We recommend the Assistant Administrator for OITA :
    1.   Develop and implement a plan to:
         a. Identify official passports issued to agency employees.
         b. Determine the location of all passports.
         c. Ensure that passports not currently being used for travel are
            returned to OITA for proper storage or cancellation.
         d. Notify the U.S. Department of State of all passports not located.
         e. Work with the Office of Environmental Information to develop
            necessary steps to contain, control and mitigate the risks from any
            potential breach and to prevent further unauthorized access to, or
            use of, sensitive PII.                                           14-P-0243




                                                                                    19
              Recommendations
2. Develop and implement an agencywide policy and
   procedure for:
   a. Issuance, monitoring and control of official passports.
   b. Informing agency staff of the policy and their responsibilities
      under the policy.

3. Conduct a review of its Intranet homepage and update
   accordingly to ensure information contained on the page
   is current and updated.

                                                                        14-P-0243




                                                                               20
    Recommendations (cont’d)
4. Develop and implement a plan to:
   a. Review and update information in PENS to ensure the information
      currently in PENS is accurate and complete.
   b. Ensure the system is kept up to date.

5. Develop and implement a policy to compare employee
   travel activity recorded in the official passport with the
   actual travel activity reported in the Fast International
   Approval Tracking database to ensure official passports are
   only used to carry out official duties.
                                                                   14-P-0243




                                                                          21
         Corrective Actions Taken by OITA
   On March 14, 2014, OITA’s Director, Office of Management and
    International Services, notified the OIG of corrective actions taken and
    planned to strengthen passport controls.
   As of March 13, 2014, OITA had:
     1.  Changed the process for destroying expired or no-longer-needed
         passports.

    2.    Modified PENS to include tracking of passports sent to Department of
          State, Special Issuance Agency.

    3.    Revised Standard Operating Procedures for passport destruction and
          renewal.

    4.    Revised International Travel Pages.
                                                                               14-P-0243




                                                                                      22
     Corrective Actions Taken By OITA
                 (cont’d)
5.    Issued an International Travel Memorandum concerning travel
      guidelines.

6.    Contacted the Department of State regarding a Memorandum of
      Understanding, and is awaiting a response.

7.    Updated the International Travel Coordinators Handbook.




                                                                    14-P-0243




                                                                           23
       OITA Planned Corrective Actions
OITA changes in process and planned corrective actions include:
1.   Program Review of PENS (estimated completed by June 2014).

2.   Development and use of PENS 2 upgraded system (by September 30, 2014).

3.   Return of Official/Diplomatic Passports to OITA.

4.   Follow-Up Program Review of its FY 2015 Federal Managers’ Financial
     Integrity Act process.




                                                                           14-P-0243




                                                                                  24
       OITA Response to OIG Report
   On April 2, 2014, we received a signed memorandum from
    OITA in response to our draft report.
   OITA accepted the recommendations and provided a
    corrective action and estimated completion date for each
    recommendation.
   All recommendations are estimated to be completed by
    September 30, 2014.
   See appendix A for OITA’s full response.
   Since OITA concurred with the recommendations, no OIG
    comments are being provided.
                                                               14-P-0243




                                                                      25
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1          Action Official                Date      Amount      Amount

     1       19    Develop and implement a plan to:                                   Assistant Administrator for
                                                                                    International and Tribal Affairs
                     a. Identify official passports issued to agency        O                                           4/30/14
                        employees.

                     b. Determine the location of all passports.            O                                           4/30/14

                     c. Ensure that passports not currently being           O                                           6/30/14
                        used for travel are returned to OITA for
                        proper storage or cancellation.

                     d. Notify the U.S. Department of State of all          O                                           6/30/14
                        passports not located.

                     e. Work with the Office of Environmental               O                                           9/30/14
                        Information to develop necessary steps to
                        contain, control and mitigate the risks from
                        any potential breach and to prevent further
                        unauthorized access to, or use of, sensitive
                        PII.

     2       20    Develop and implement an agencywide policy and           O         Assistant Administrator for
                   procedure for:                                                   International and Tribal Affairs
                     a. Issuance, monitoring and control of official                                                    9/30/14
                        passports.

                     b. Informing agency staff of the policy and                                                        9/30/14
                        their responsibilities under the policy.

     3       20    Conduct a review of its Intranet homepage and            C         Assistant Administrator for       3/17/14
                   update accordingly to ensure information                         International and Tribal Affairs
                   contained on the page is current and updated.
     4       21    Develop and implement a plan to:                         O         Assistant Administrator for
                                                                                    International and Tribal Affairs    6/30/14
                     a.   Review and update information in PENS to
                          ensure the information currently in PENS is
                          accurate and complete.

                     b.   Ensure the system is kept up to date.                                                         9/30/14

     5       21    Develop and implement a policy to compare                O         Assistant Administrator for       9/30/14
                   employee travel activity recorded in the official                International and Tribal Affairs
                   passport with the actual travel activity reported in
                   the Fast International Approval Tracking database
                   to ensure official passports are only used to carry
                   out official duties;



1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0243                                                                                                                                             26
                                                                                  Appendix A



                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460



                                                                                    OFFICE OF
                                                                                INTERNATIONAL AND
                                                                                  TRIBAL AFFAIRS




                                         April 2, 2014

MEMORANDUM


SUBJECT:      Response to Office of Inspector General Draft Report “Review of EPA Passport
              Controls,” March 19, 2014

FROM:         Jane Nishida      /s/
              Acting Assistant Administrator

TO:           Arthur A. Elkins, Jr.
              Inspector General

        Thank you for the opportunity to respond to the issues and recommendations in the
draft report “Review of EPA Passport Controls.” The following is a summary of the Office of
International and Tribal Affairs’ (OITA) overall position, along with technical comments to
clarify and supplement this response.

OVERALL POSITION

        OITA accepts the recommendations in the draft report, and we have assigned corrective
actions outlined below.

        As communicated to your office on March 14, 2014, and included in the Technical
Comments Attachment, OITA has taken a number steps to strengthen its passport controls.
Some of these changes have been implemented fully and others are in process of being
implemented. OITA is committed to addressing the specific issues that the OIG has raise in its
draft report and to maintaining an environment of strong passport controls.




14-P-0243                                                                                        27
      RESPONSE TO REPORT RECOMMENDATIONS
      Agreements

                                                           High-Level Intended Corrective                Est.
No.                Recommendation                                                                        Completion
                                                                     Action(s)
1     Develop and implement a plan to:

      a. identify all official passports issued to       OITA is conducting a review to identify         April 30, 2014
         agency employees;                               all official passports issued to agency
                                                         employees as documented in our technical
                                                         comments attachment.
      b. determine the location of all passports;        OITA is conducting a review to determine        April 30, 2014
                                                         the location of all passports as documented
                                                         in our technical comments attachment.
      c. ensure that passports not currently being       OITA has requested that passports not           June 30, 2014
         used for travel are returned to OITA for        currently being used for travel are returned
         proper storage or cancellation;                 to OITA as documented in our technical
                                                         comments attachment.
      d. notify the Department of State of all           OITA is notifying State of all missing          June 30, 2014
         passports not located; and                      passports by immediately filing a lost/stolen
                                                         passport application as soon as we confirm
                                                         that a passport cannot be located.
      e. work with Office of Environmental               OITA will work with OEI, as                     September 30,
          Information to develop necessary steps to      recommended.                                    2014
          contain, control and mitigate the risks from
          any potential breach and prevent further
          unauthorized access to or use of sensitive
          PII.
2     Develop and implement an agency wide policy
      and procedure:
      a. for the issuance, monitoring, and control of OITA will develop policy, as                       September 30,
         official passports;                          recommended, for agency directives                 2014
                                                      clearance review. This policy will
                                                      include:
                                                           passport holder roles and
                                                               responsibilities
                                                           control of passport and passport-
                                                               related information
                                                           regional waiver process and
                                                               conditions
                                                           monitoring passport use against
                                                               international travel plan
      b. inform agency staff of the policy and their OITA will notify agency staff of the new            September 30,
         responsibilities under the policy.           policy, as recommended.                            2014




      14-P-0243                                                                                                28
                                                         High-Level Intended Corrective             Est.
No.                Recommendation                                                                   Completion
                                                                   Action(s)
3     Conduct a review of its intranet homepage and    Completed.                                   March 17,
      update accordingly to ensure information                                                      2014
      contained on the page is current and updated.



4     Develop and implement a plan to:

      a. review and update information in PENS to       OITA is in the process of updating the      June 30, 2014
         ensure the information currently in PENS       information in PENS as documented in
         accurate and complete and                      our technical comments attachment.
      b. ensure the system is kept up to date.          OITA is developing PENS 2, an upgraded      September 30,
                                                        passport tracking database, as documented   2014
                                                        in our technical comments attachment.
5     Develop and implement a policy to compare         OITA will develop and document a            September 30,
      employee travel activity recorded in the official process for sampling passports for the      2014
      passport with the actual travel activity reported recommended comparison.
      in FIAT to ensure official passport are only used
      to carry out official duties.




      CONTACT INFORMATION

             If you have any questions regarding this response, please contact Teresa Ruppe, Audit
      Follow-Up Coordinator, Office of International and Tribal Affairs at 202-564-6619.

      Attachment

      cc:

      Michael Stahl, DAA
      Katrina Cherry, Director OMIS
      Dennis Cunningham, Deputy Director OMIS




      14-P-0243                                                                                           29
                               Technical Comments Attachment

            Response to Office of Inspector General Draft Passport Controls Report

Specific Comments on the Draft Report

   Page 4: Please remove the reference to EPA-OIG Report No. 13-P-0272 concerning EPA’s
    Warehouse. Without additional background information, this reference is confusing and may
    be viewed as an ongoing action of the current review.
   Page 15, 2nd bullet: Please clarify this bullet. Until March 2014 OITA’s guidance only
    noted that employees “should” return their passports to OITA, but was not mandatory.
    There was no requirement to enforce the guidance.
   Page 18, 2nd bullet: Please change this bullet to, “OITA is not always notified when an
    employee separates from the Agency.” OITA does update PENS when we are notified of an
    employee’s departure.

Changes Made as of March 13, 2014

Destruction of Expired or No-Longer-Needed Passports: In May 2013, OIG notified the
Office of the Administrator that a number of expired passports had been found unsecured at
EPA’s warehouse in Landover, Maryland. Upon learning of these passports, OITA immediately
stopped sending expired or no-longer-needed passports for destruction within the
agency. OITA’s Office of Management and International Services (OMIS) notified the Special
Issuance Office within the Department of State that, beginning immediately, EPA would send all
such passports directly to State for incineration.

After agents from OIG returned the passports found at the Landover warehouse to OITA, staff in
our International Travel Office worked with the Special Issuance Agency at the Department of
State to return these passports to State for destruction.

OITA also developed standard language for all letters sent to the Special Issuance Agency
instructing State not to return cancelled passports to EPA.

All letters requesting renewal or destruction of Official/Diplomatic passports must now be signed
by the Director or Deputy Director of OMIS. Copies of these request letters must also be
maintained in OITA’s International Travel Office.

Update to the Passport Expiration Notification System (PENS): OITA changed PENS, its
database for tracking passport expiration and renewal requests, to include a field for tracking
when passports are sent to the Special Issuance Agency, either for renewal or destruction.

New Standard Operating Procedures: OITA revised its Standard Operating Procedure for
passports to reflect changes in how the agency now manages requests for passport
destruction/renewal. The revised SOP also includes templates for letters to the Special Issuance
Agency.




14-P-0243                                                                                         30
Revised International Travel Pages: OITA thoroughly updated the travel information on its
intranet site, which serves as a key source of information on international travel planning,
passports, visas, and security issues related to foreign travel. The site’s new structure will make
it easier for OITA to locate and update the travel information we provide.

International Travel Memorandum to the AAs/RAs/DAAs/DRAs/OGC/IG: On March 14,
2014, the OITA Acting AA emailed an updated list of requirements and best practices related to
international travel planning (see attachment). The AAs/RAs/DAAs/DRAs/OGC/IG were asked
to distribute this email through their organizations and help the agency adhere to all relevant
policies and guidelines on international travel. The OITA DAA will also discuss this document
with the DAAs/DRAs and it will be posted to OITA’s intranet site.

Update as of April 2, 2014: Travel memo is posted to OITA’s intranet site.

Memorandum of Understanding with the Special Issuance Agency: OITA Acting AA
contacted the Acting Director of the Special Issuance Agency (SIA) at the Department of State
regarding an MOU between our agencies on passport management. During a call with the
Special Issuance Agency on last year, SIA management mentioned that their organization would
be interested in developing such an MOU with EPA. OITA believes that the MOU would help
clarify further roles and responsibilities related to passport management. We are currently
awaiting a status update from the SIA.

Updated International Travel Coordinators (ITC) Handbook: OIG’s review prompted
OITA to revise the International Travel Coordinators Handbook. The Handbook is now
available on OITA’s intranet site in an HTML format, and is being distributed to the ITCs, which
will facilitate future revisions. The updated text addresses numerous changes to the structure of
the International Travel Plan (ITP) form in FIAT.

Other Changes In-Process

Program Review of PENS: As part of its Multi-year Plan for Program Reviews under FMFIA,
OITA had planned a FY 2014 review of passport controls. The work already undertaken by OIG
as part of its review as well as some of the initial feedback that OIG has provided has led OITA
to focus its review more closely on the structure of PENS and on the quality of the system’s
data. OITA believes that a thorough review of PENS, though time-consuming, will substantially
help us improve the quality of our data and guide OITA as it develops a next-generation
database.

OITA assigned staff from outside of the International Travel Office to design and carry out the
review. As of March 13, 2014, OITA staff have reviewed approximately 500 of the 2800
records in PENS, documenting any missing or conflicting data. OITA expects the review to be
completed and initial findings and recommendations available by late April 2014.

Update as of March 27, 2014: OITA has reviewed approximately 2,200 of the 2,800 records in
PENS. The record review will be completed by April 4th, at which time our office will begin




14-P-0243                                                                                         31
correcting all identified errors in PENS. We will draw on our analysis of data entry errors to
develop an improved passports management database (PENS 2).

Development of PENS 2: Based on the findings and recommendations from the OIG’s review
of passport controls and from OITA’s review of records in PENS, OITA will develop PENS 2,
an upgraded passport tracking database. This new database will contain records only on active
Official and Diplomatic passports (all information from the legacy PENS will be archived) and
will feature new controls to help prevent data entry errors. OITA’s goal is to have PENS 2 in use
before the end of FY14.

Return of Official/Diplomatic Passports to OITA: EPA’s international travelers should return
their Official or Diplomatic passports to OITA’s International Travel Office within 15 days of
returning to the United States. OITA acknowledges that many travelers appear not to have
been aware of this policy and therefore, have not returned their passports to the International
Travel Office in a timely manner. While this failure does not indicate any malfeasance, OITA is
working with program offices to correct this issue.

Using data provided by the OIG following their review of PENS and of the passports in OITA’s
International Travel Office, OITA is contacting each traveler who hasn’t returned his/her
Diplomatic or Official passport, as required. Reaching out to these travelers should significantly
reduce the number of passports being held outside of the International Travel Office. OITA
acknowledges that a small number of staff, such as emergency responders who might be called to
work on transboundary issues, will need to maintain their passports in their Region or
Lab. OITA will work with the Regions/Labs where these employees work to develop a process
for securing their passports on-site. Our goal is to have this alternate process developed and in
place by June 2014.

OITA is also exploring options to modify the Fast International Approval of Travel (FIAT)
system so that it sends automated reminders to staff who have not returned their passports within
15 days of their scheduled travel end date.

Follow-up Review: OITA will perform another program review of passport controls as part of
its FY 2015 FMFIA process. This second review will assist us in confirming the efficacy of the
controls we developed in FY 2013 and FY 2014, and identify any new controls that may be
necessary.




14-P-0243                                                                                        32
                                                                               Appendix B

                                    Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for International and Tribal Affairs
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for International and Tribal Affairs
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Audit Follow-Up Coordinator, Office of International and Tribal Affairs




14-P-0243                                                                                 33
